Oversight Review      August 15, 2008


       Quality Control Review of
       Air Force Audit Agency's
     Special Access Program Audits


       Report No. D-2008-6-007
  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of the
  Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or
  fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1017)
                                 Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
  by sending an electronic message to Hotline@dodig.mil; or by writing to the Defense
  Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms

AFAA                  Air Force Audit Agency
GAS                   Government Auditing Standards
IG                    Inspector General
NAS                   Naval Audit Service
PCIE                  President’s Council on Integrity and Efficiency
SAP                   Special Access Programs
                                                    OF DEF:EN~U~:
                                     400 ARMY NAVY DRIVE
                                           VIRGINIA ;':;£\,::'::0,-·4/1)4


                                                                                               15
MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE

SUBJECT: Quality Control Review of Air Force Audit Agency's                 Speciall-\cce~,s
         Program Audits Report No. D-2008-6-007

         We are providing this report for your information and use. We reviewed the Air Force
Audit            s (AFAA)         of quality control over Special          Programs (SAP) audits
for the two         ended September 30, 2007. The Government Auditing                 (GAS)
requires that an audit organization performing audits and/or attestation engagements in
ac(:ofldarlce with       should      an appropriate internal quality control       in place and
              external peer       at least once       three       by reviewers independent
                                         the              that     audit policy    oversight
Appendix A. Comments, Observations, and
            Recommendations
We are issuing an unmodified opinion because we determined that the AFAA quality control
system is adequately designed and functioning as prescribed. The concerns we identified with
the working papers supporting the findings, conclusions, or recommendations during our review
of the selected AFAA audit reports were not cumulatively significant enough to indicate that
material deficiencies existed in the AFAA quality control system for complying with GAS.
Because of the timeframe of the audit reports in our review, we measured the audits for
compliance with the 2003 revision of the GAS and the May 2005 AFAA audit policies. We
identified issues that are still applicable even when we apply the updated 2007 revision of GAS
and the April 2006 AFAA audit policies.

Although the concerns we identified did not affect our overall opinion, there were areas where
AFAA could improve the quality control process. We judgmentally selected and reviewed three
of sixteen audit reports issued during a two year time period ending September 30, 2007. We
tested the reports for compliance with GAS and AFAA audit policies in nine areas to include
independence, professional judgment, competence, audit planning, supervision, evidence and
audit documentation, reporting, non-audit services, and quality control. We identified minor
discrepancies in three of the nine areas in our review in applying AFAA audit policy relating to:

   •   audit planning,

   •   supervision, and

   •   quality control.

Audit Planning. GAS 7.41 (2003 Revision) states that a written audit plan should be prepared
for each audit. The form and content of the written audit plan will vary among audits but should
include an audit program or project plan, a memorandum, or other appropriate documentation of
key decisions about the audit objectives, scope, and methodology and of the auditors’ basis for
those decisions. It should be updated as necessary, to reflect any significant changes to the plan
made during the audit. In addition, GAS 7.42 states that documenting the audit plan is an
opportunity for the auditors to supervise audit planning.

AFAA Instruction 65-101, “Installation Audit Procedures”, May 27, 2005, Section 2.8,
Audit Program, requires the auditor to prepare a written audit program before starting any
in-depth audit work. Team chiefs will review the program for adequacy and approve the
program before the auditor starts audit testing. The program must provide understandable audit
objectives and a series of program steps that will reasonably accomplish each objective.




                                                2
We found that AFAA had adequately planned the three SAP audits in our review and
documented the planning of these audits in a written audit plan. For two of the three audits in
our review, the supervisor did not document the approval of the audit program prior to the start
of audit work as required in AFAA Instruction 65-101. In one of these audits, the supervisor
approved the audit program on his first visit to the audit office location which occurred months
after the start of the audit. This was due in part to the supervisor not being co-located with the
auditor assigned to the audit. Because the AFAA SAP offices are widely scattered, the
supervisor only visits each office three or four times per year. The classification of the
documents and working papers requires the supervisor to conduct reviews at the office where the
audit files are located.

While the supervisor did not initial and date the audit program in the files until after the start of
the audit, the audit files included documentation indicating that the supervisor was actively
engaged in the audit planning process before the start of audit work.

         Recommendation: We recommend that the Air Force Auditor General issue a
memorandum to remind all SAP audit personnel of the importance of complying with
established guidance for review and approval of the audit program before the auditor starts audit
testing.

        Management Comments. The Air Force Auditor General concurred with the
recommendation and stated that the AFAA Representative for Special Programs will discuss
audit program review and approval during the AFAA SAP auditor conference to be held
August 25-26, 2008. In addition, the AFAA Representative for Special Programs will issue a
memorandum to all SAP auditors stressing the importance of complying with guidance related to
audit program supervisory review and approval.

       Reviewer Response. Management comments are responsive.

Supervision. GAS 7.47 (2003 Revision) requires that reviews of audit work should be
documented. The nature and extent of the review of audit work may vary depending on a
number of factors, such as the size of the audit organization, the significance of the work, and the
experience of the staff.

AFAA Instruction 65-101 “Installation Audit Procedures”, May 27, 2005, Section 3.3.3,
Supervisory Review, states that team chiefs will review all project working papers and use the
AFAA Audit Review Record to specify the working papers reviewed; indicate the dates they
reviewed the specified working papers; and record their review questions, taskings, and overall
comments (both favorable and critical). Also, the team chief must electronically sign or initial
and date each auditor-prepared electronic working paper file.

We judgmentally selected fifteen facts and figures from each audit report and reviewed the
supporting working papers for evidence and documentation and supervisory reviews. For all
three audits in our review, we found that some supporting working papers lacked evidence of
supervisory reviews. During our review, we found the following:



                                                   3
   •   For two of the three audits, each audit had one of the fifteen facts/figures in our sample
       that the supervisor did not initial and date the supporting working papers as required in
       AFAA Instruction 65-101. In addition, we identified in each of these two audits an
       additional fact or figure not included as part of our sample that did not contain evidence
       of supervisory reviews such as the supervisor’s initials and date on the supporting
       working paper.

   •   For the remaining audit, two of the fifteen facts/figures in our sample the supervisor did
       not initial and date the supporting working papers.

While the supervisor did not initial and date these supporting working papers, we identified
evidence of supervisory actions throughout the audit documentation such as telephone records of
conversations between the auditors and the audit supervisor and the AFAA Audit Review
Record.

        Recommendation: We recommend that the Air Force Auditor General issue a
memorandum to remind all SAP audit personnel of the importance of complying with
established guidance for obtaining supervisory approval on supporting working papers.

        Management Comments. The Air Force Auditor General concurred with the
recommendation and stated that the AFAA Representative for Special Programs will discuss
supervisory review of working papers during the AFAA SAP auditor conference and will issue a
memorandum to all SAP auditors stressing the importance of obtaining supervisory approval on
all supporting working papers.

       Reviewer Response. Management comments are responsive.

Quality Control. GAS 3.49 (2003 Revision) requires that each audit organization performing
audits and/or attestation engagements in accordance with GAS should have an appropriate
internal quality control system in place. Also, GAS 3.51 states that each audit organization
should prepare appropriate documentation for its system of quality control to demonstrate
compliance with its policies and procedures.

AFAA Instruction 65-101 “Installation Audit Procedures,” May 27, 2005, Section 4.8.2.9,
Independent Referencer Review Record, requires that the independent referencer document all
comments, questions, and discrepancies on the Independent Referencer Review Record. The
auditor will clearly accept, modify, or reject each point on the Independent Referencer Review
Record. Also, Section 4.8.2.9.1 requires that when referencing is complete, the independent
referencer, auditor, and team chief will sign and date the certification statement located at the
bottom of the Internal Referencer Review Record indicating that the independent referencing
was completed, and all suggestions and comments were satisfactorily resolved.

For all three audits reviewed, we found that either the independent referencer or the supervisor
did not sign the certification at the bottom of the Independent Referencer Review Record.
During our review we found that:



                                                 4
   •   Two of three audits the independent referencer did not sign the independence reference
       review certification indicating that all the comments and/or questions that the
       independent referencer addressed have been resolved. The independent referencer’s
       initials and dates were included on the project file index, but the document had not been
       signed.

   •   For the remaining audit, the supervisor did not sign the independent reference review
       certification and only initialed and dated the project file index.

In addition, for one of the three audits reviewed, the auditor who performed the independent
reference review had signed an independence statement at the beginning of the audit as an audit
team member. This auditor was a participant during initial briefings relating to the audit because
of prior work experience with the audited area. This auditor was also responsible for addressing
management comments after the draft report was issued due to the departure of the auditor who
performed the audit work.

        Recommendation 1. We recommend that the Air Force Auditor General issue a
memorandum to remind all SAP audit personnel of the importance of complying with
established guidelines for independent reviewer and team chief signatures and dates on the
Independent Referencer Review Record.

        Management Comments. The Air Force Auditor General concurred and stated that the
AFAA Representative for Special Programs will discuss the topic during the AFAA SAP
Auditor Conference and will issue a memorandum to all SAP auditors stressing the importance
of obtaining independent reviewer and division chief signatures and dates on the Independent
Referencer Review Record.

       Reviewer Response. Management comments are responsive.

As part of the quality control review of the AFAA SAP audits, we reviewed the AFAA internal
quality assurance process. DoD OIG Report No. D-2005-6-009, “Quality Control Review of the
Air Force Audit Agency’s Special Access Program Audits” dated August 26, 2005 contained a
recommendation to establish as part of its internal quality control program, internal quality
assurance reviews of selected SAP audits. The AFAA performed one quality assurance review
dated December 2007 which was completed over two years after DoDIG issued the quality
control report of the AFAA SAP audits. The AFAA Representative for Special Programs stated
that he was planning for another review during the last quarter of FY 2009. While having
performed an internal quality assurance review is a step towards verifying compliance with GAS
and AFAA audit policies, the reviews should be done more frequently and planned for scheduled
intervals.




                                                5
      Recommendation 2: We recommend that the AFAA Representative for Special
Programs establish timeframes to perform internal quality assurance reviews to make sure that
SAP audits are in compliance with GAS and AFAA audit policies.

       Management Comments. The Air Force Auditor General concurred and stated that the
AFAA Representative for Special Programs will schedule internal quality assurance reviews
annually to ensure SAP audits comply with GAS and AFAA audit policies.

       Reviewer Response. Management comments are responsive.




                                               6
Appendix B. Scope and Methodology
We limited our review to the adequacy of AFAA SAP audits’ compliance with quality policies,
procedures, and standards. We judgmentally selected three SAP audits from a universe of formal
reports issued by AFAA SAP auditors during FY 2006 and FY 2007. We tested each audit for
compliance with the AFAA system of quality control. The NAS conducted a review of the
AFAA internal quality control system for non-SAP audits and/or attestation engagements and
has issued a separate report. The Acting Assistant Inspector General for Audit Policy and
Oversight will issue an overall opinion report on the AFAA internal quality control system that
will include the combined results of the SAP and non-SAP audit reviews.

In performing our review, we considered the requirements of quality control standards and other
auditing standards contained in the 2003 Revision of the GAS issued by the Comptroller General
of the United States. GAS 3.52 states:

       The external peer review should determine whether, during the period under review, the reviewed audit
       organization’s internal quality control system was adequate and whether quality control policies and
       procedures were being complied with to provide the audit organization with reasonable assurance of
       conforming with applicable professional standards. Audit organizations should take remedial, corrective
       actions based on the results of the peer review.

We conducted this review in accordance with standards and guidelines established in the April
2005 President’s Council on Integrity and Efficiency (PCIE) “Guide for Conducting External
Peer Reviews of the Audit Operations of Offices of Inspector General.” The NAS used this
guide in review of non-SAP audits at the AFAA. We reviewed audit documentation, interviewed
AFAA auditors, and reviewed AFAA internal audit policies. We reviewed the
DoD OIG Report No. D-2005-6-009, “Quality Control Review of the Air Force Audit Agency’s
Special Access Program Audits” dated August 26, 2005. We performed this review from May to
July 2008 at three AFAA offices.

We used the following criteria to select the audits under review:

   •   Worked backward starting with the FY 2007 audits in order to review the most current
       quality assurance procedures in place.

   •   Avoided audits with multiple SAPs associated with the audits for ease of access.

   •   Avoided audits that have the same or similar titles, to ensure review of multiple types of
       projects.




                                                      7
The following table identifies the specific reports reviewed.

   Report Number                   Date                              Title

F2007-0004-FA0900           December 22, 2006 Contracting and Financial
                                               Management
F2007-0007-FA0900             January 30, 2007 Review of MIPRS (Military
                                               Interdepartmental Purchase Requests)
F2007-0010-FA0900           September 28, 2007 Systems Control and Accounting
                                               Conformance



Limitations of Review. Our review would not necessarily disclose all weaknesses in the system
of quality control or all instances of noncompliance with it because we based our review on
selective tests. There are inherent limitations in considering the potential effectiveness of any
quality control system. In performing most control procedures, departures can result from
misunderstanding of instructions, mistakes of judgment, carelessness, or other human factors.
Projecting any evaluation of a quality control system into the future is subject to the risk that one
or more procedures may become inadequate because conditions may change or the degree of
compliance with procedures may deteriorate.




                                                  8
Appendix C. Air Force Audit Agency Comments




                     9
10
